Audit Report




OIG-07-009
Audit of the Federal Financing Bank’s
Fiscal Years 2006 and 2005 Financial Statements
November 15, 2006




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              November 15, 2006


            MEMORANDUM FOR SECRETARY PAULSON

            FROM:                   Harold Damelin
                                    Inspector General

            SUBJECT:                Audit of the Federal Financing Bank’s
                                    Fiscal Years 2006 and 2005 Financial Statements

            SUMMARY:

            I am pleased to transmit the attached audited Federal Financing Bank’s (FFB)
            financial statements for Fiscal Years (FY) 2006 and 2005, as required by the
            Government Corporation Control Act.

            DISCUSSION:

            We contracted with the independent certified public accounting firm KPMG LLP to
            audit FFB’s financial statements as of September 30, 2006 and 2005 and for the
            years then ended. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards; applicable provisions of
            OMB Bulletin No. 06-03, Audit Requirements for Federal Financial Statements; and
            the GAO/PCIE Financial Audit Manual. The following reports, prepared by
            KPMG LLP, are incorporated in the attachment:

                    •   Independent Auditors’ Report on Financial Statements;
                    •   Independent Auditors’ Report on Internal Control over Financial Reporting;
                        and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit of FFB’s financial statements, KPMG LLP found:

                    •   the financial statements were fairly presented, in all material respects, in
                        conformity with U.S. generally accepted accounting principles;
                    •   no matters involving internal control and its operation that are considered
                        material weaknesses; and
                    •   no instances of reportable noncompliance with laws and regulations
                        tested.
Page 2



In addition, KPMG LLP issued a management letter dated November 10, 2006,
discussing other matters involving internal control over financial reporting and its
operation that were identified during the audit, but were not required to be included
in the audit reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on FFB’s financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated November 10, 2006 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 622-1090, or a
member of your staff may contact Marla A. Freedman, Assistant Inspector General
for Audit, at (202) 927-5400.

Attachment

cc:   Donald V. Hammond
      Vice President, FFB

      Roger Kodat
      Vice President and Treasurer, FFB
     FEDERAL FINANCING BANK
           Financial Statements

       September 30, 2006 and 2005

(With Independent Auditors’ Report Thereon)
                                   FEDERAL FINANCING BANK


                                          Table of Contents



                                                                            Page

Management’s Discussion and Analysis                                          1

Independent Auditors’ Report on Financial Statements                          4

Financial Statements                                                          6

Notes to Financial Statements                                                 9

Other Supplementary Information – Schedule 1                                 16

Independent Auditors’ Report on Internal Control over Financial Reporting    17

Independent Auditors’ Report on Compliance and Other Matters                 19
                                     FEDERAL FINANCING BANK
                                  Management’s Discussion and Analysis
                      Unaudited – See Accompanying Independent Auditors’ Report
                                       September 30, 2006 and 2005



Introduction

The Federal Financing Bank (the Bank) is a government corporation under the general supervision and
direction of the Secretary of the Treasury. It was created by the Congress in 1973, at the request of the U.S.
Department of the Treasury (Treasury). The Bank borrows primarily from Treasury and lends to Federal
agencies and private borrowers that have Federal guarantees.

Mission

The mission of the Bank is to reduce the costs of Federal and federally assisted borrowings, to coordinate
such borrowings with the Government’s overall fiscal policy, and to ensure that such borrowings are done
in ways that least disrupt private markets. To accomplish this mission, the Bank exercises its broad
statutory authority to purchase obligations issued, sold, or guaranteed by Federal agencies.

Objectives

The Bank was formed to be the vehicle through which Federal agencies finance programs involving the
sale or placement of credit market instruments, including agency securities, guaranteed obligations,
participation agreements and the sale of assets. This principle is applied in the manner consistent with the
Federal Financing Bank Act of 1973 (12 U.S.C. 2281 et seq.) and its legislative history. Guaranteed
programs entailing large numbers of relatively small loans in which local origination and servicing are an
integral part of the program are excluded.

The Bank makes funds available to Federal agencies and to guaranteed borrowers in accordance with
program requirements. The Bank is capable of providing a lending rate for any amount required and for
nearly any maturity. The rate charged by the Bank for terms such as prepayment provisions, forward
interest rate commitments, and pass-through of service charges are applied consistently for all borrowers.

The lending policy of the Bank is flexible enough to preclude the need for any accumulation of pools of
funds by agencies. This does not exclude the maintenance of liquidity reserves for those agencies that have
such a need. In no case will funds provided by the Bank be invested in private credit instruments or be
used to speculate in the market for public securities.

Organizational Structure

The Bank is subject to the general supervision and direction of the Secretary of the Treasury. The Board of
Directors is comprised of the incumbents of the following Treasury offices: The Secretary of the Treasury,
who, as provided by law, is the Chairman; the Deputy Secretary; the Under Secretary for Domestic
Finance; the General Counsel; and the Fiscal Assistant Secretary.

The officers are incumbents of the following Treasury offices (corresponding Bank positions are in
parentheses): the Under Secretary for Domestic Finance (President); the General Counsel (General
Counsel); the Assistant Secretary for Financial Markets (Vice President); the Fiscal Assistant Secretary
(Vice President); the Deputy Assistant Secretary for Government Financial Policy (Vice President and
Treasurer); and the Director, Office of Federal Lending (Secretary and Chief Financial Officer).


                                                      1
                                     FEDERAL FINANCING BANK
                                   Management’s Discussion and Analysis
                       Unaudited – See Accompanying Independent Auditors’ Report
                                        September 30, 2006 and 2005



A delegation by the Bank President authorizes any Bank Vice President, in consultation with any other
Bank officer, to exercise the powers of the Presidency.

The staff of the Bank is organized into two units headed by the Bank manager and the Accounting
manager, respectively, who report to the Bank Secretary and Chief Financial Officer. The Bank manager is
responsible for the administrative unit which includes the duties and responsibilities associated with credit
analysis, loan origination, loan structuring and customer service. The Bank manager also acts as the
organization’s CIO with responsibility for a team of information systems professionals who conduct in-
house software development and maintain the Bank’s Oracle-based mission critical enterprise application.
That application provides systems support for the loan administration and accounting functions. The
Accounting manager heads a team of professionals responsible for loan disbursements, accounting for loan
repayments, and financial reporting.

Ongoing Issues

Under a provision in the 1987 enabling legislation for the U.S. Department of Agriculture’s Rural Utilities
Service (RUS) Cushion of Credit Payments Program (“cushion of credit”), the Bank receives considerably
less interest each year on certain loans that it holds than it is contractually entitled to receive. This
provision, however, does not reduce the amount of interest the Bank owes on its corresponding loans from
Treasury. The shortfall in interest received by the Bank has resulted in substantial deficits in the past and
has the possibility of resulting in deficits in the future. The cumulative losses from interest credits taken by
the RUS, beyond losses that were extinguished by appropriation in a previous year, totaled $1.0 billion
through September 30, 2006. The interest shortfall is recorded on the statement of operations and changes
in net position as legislatively-mandated expense.

The Balanced Budget and Emergency Deficit Control Act of 1985, commonly known as Gramm-Rudman-
Hollings, Consolidated Omnibus Budget Reconciliation Act of 1985 and the Federal Credit Reform Act of
1990 include provisions that have acted as prohibitions and disincentives against Bank financing of certain
loans that are 100 percent guaranteed by Federal agencies. The result has been a long-term reduction in the
Bank loan portfolio and a more than corresponding increase in government guaranteed loans funded in the
private markets. Both of these trends are expected to continue unabated without legislation to remove these
statutory prohibitions against Bank financing.

Operations and Changes in Net Position Highlights

The following is a synopsis of the financial performance of the Bank for the fiscal year ended September
30, 2006. Interest on loans of $1.94 billion for the fiscal year ended September 30, 2006 was relatively flat
compared to the interest on loans for the fiscal year ended September 30, 2005. Though the loan portfolio
has actually increased since the prior year, new loans were funded relatively late in the year and had yet to
make up the reduction in revenue as a result of the $1.6 billion reduction in loans receivable from fiscal
year 2004 to fiscal year 2005. Revenue from servicing loans of $2.4 million was down $1.0 million
comparatively. Servicing revenue continues to shrink as pre-credit reform loans mature.

Interest on borrowings of $1.2 billion for the fiscal year ended September 30, 2006 continued to be in line
with expectations. After the bi-annual legislatively-mandated expense of $234.3 million and administrative


                                                       2
                                     FEDERAL FINANCING BANK
                                  Management’s Discussion and Analysis
                      Unaudited – See Accompanying Independent Auditors’ Report
                                       September 30, 2006 and 2005



expenses of $4.0 million, net income of $533.2 million for the fiscal year ended September 30, 2006
represents a $22.8 million reduction from the net income for the fiscal year ended September 30, 2005.
Legislatively-mandated expenses are related to “cushion of credit” Rural Utilities Service loans.

Statement of Financial Position Highlights

Funds with U.S. Treasury (cash equivalent) of $901.5 million at September 30, 2006 continue to
accumulate year-to-year, balanced by significant semi-annual interest payments on outstanding Office of
Personnel Management (OPM) securities during the year ($651.2 million for fiscal year ended September
30, 2006). The Bank retains higher cash balances compared to previous years in order to ensure payment of
interest on OPM related securities and make prepayments of debt held by the Secretary of the Treasury,
when deemed appropriate.

The loan portfolio (loans receivable) increased $4.0 billion from $27.8 billion at September 30, 2005 to
$31.8 billion at September 30, 2006. The increase is primarily the result of $2.0 billion in new financing to
the National Rural Utilities Cooperative Finance Corporation and a $2.1 billion short-term loan to the
United States Postal Service. The Bank’s net position increased to over $1.7 billion at September 30, 2006
as a result of steady positive earnings.

All of the loans in the Bank’s portfolio are federally guaranteed except for those of the United States Postal
Service. The Bank does not maintain a reserve for loan losses as no future credit related losses are
expected.

During fiscal year 2006, the Bank processed 441 new loan requests. The interest rate was set or reset on
1,082 loans in fiscal year 2006. This includes new loans and maturity extensions. In addition, the Bank
received 142 prepayments and processed 19,487 loan payments in fiscal year 2006.

Management Controls

The Bank completed an in-depth testing of its internal accounting and administrative control procedures in
accordance with OMB Circular No. A-123, Management Accountability and Control, in June 2006. In
addition, a private contractor performed a certification and accreditation of the Bank’s enterprise
management system, known as the Loan Management Control System, in July of 2006.

Accordingly, we believe that the Bank’s systems of internal accounting and administrative controls fully
comply with the requirements for agency internal accounting and administrative control systems, providing
reasonable assurance that they are achieving the intended objectives.




                                                      3
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                         Independent Auditors’ Report on Financial Statements


Inspector General, U.S. Department of the Treasury and the
Fiscal Assistant Secretary of the U.S. Department of the Treasury:

We have audited the accompanying statements of financial position of the Federal Financing Bank
(the Bank) as of September 30, 2006 and 2005, and the related statements of operations and changes in net
position and cash flows for the years then ended. These financial statements are the responsibility of the
Bank’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements. Those standards
and OMB Bulletin No. 06-03 require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Bank’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements, assessing the
accounting principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Federal Financing Bank, as of September 30, 2006 and 2005, and the results of its
operations, changes in net position, and cash flows for the years then ended, in conformity with U.S.
generally accepted accounting principles.

The information in the Management’s Discussion and Analysis section is presented for the purpose of
additional analysis and is not a required part of the financial statements. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the methods of measurement
and presentation of this information. However, we did not audit this information and, accordingly, we
express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The other supplementary information included in Schedule 1 is presented for purposes of additional
analysis and is not a required part of the financial statements. Such information has not been subjected to
the auditing procedures applied in the audits of the basic financial statements and, accordingly, we express
no opinion on it.



                                    KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                    a member of KPMG International, a Swiss cooperative.
In accordance with Government Auditing Standards, we have also issued reports dated November 10,
2006, on our consideration of the Bank’s internal control over financial reporting and its compliance with
certain provisions of laws, regulations, contracts, and other matters. The purpose of those reports is to
describe the scope of our testing of internal control over financial reporting and compliance and the results
of that testing, and not to provide an opinion on the internal control over financial reporting or on its
compliance with laws, regulations, contracts, and other matters. Those reports are an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in conjunction
with this report in considering the results of our audits.




November 10, 2006




                                                     5
                                     FEDERAL FINANCING BANK
                                      Statements of Financial Position
                                       September 30, 2006 and 2005
                                           (Dollars in thousands)


                                                                           2006         2005
Assets:
  Funds with U.S. Treasury                                          $       901,480      361,469
  Loans receivable (notes 2 and 4)                                       31,843,573   27,774,344
  Advances to others                                                            283          152
  Accrued interest receivable                                               445,699      182,972
              Total assets                                          $    33,191,035   28,318,937
Liabilities:
   Borrowings:
      Principal amount                                              $    30,709,045   26,426,618
      Plus unamortized premium                                              405,702      474,640
      Total borrowings (note 3)                                          31,114,747   26,901,258
   Accrued interest payable                                                 322,330      197,036
   Other liabilities                                                            129           —
              Total liabilities                                          31,437,206   27,098,294
Net position (note 5)                                                     1,753,829    1,220,643
              Total liabilities and net position                    $    33,191,035   28,318,937


See accompanying notes to financial statements.




                                                     6
                                    FEDERAL FINANCING BANK
                           Statements of Operations and Changes in Net Position
                                Years ended September 30, 2006 and 2005
                                          (Dollars in thousands)


                                                                          2006         2005
Revenue and financing sources:
  Interest on loans                                                $     1,944,655    1,939,428
  Revenue from servicing loans                                               2,431        3,436
              Total revenue                                              1,947,086    1,942,864
Expenses:
  Interest on borrowings                                                 1,175,643    1,139,535
  Legislatively-mandated expense                                           234,266      244,420
  Administrative expenses                                                    3,991        2,945
              Total expenses                                             1,413,900    1,386,900
              Net income                                                   533,186     555,964
Net position:
  Beginning of year                                                      1,220,643     612,986
  Net income                                                               533,186     555,964
  Gain on extinguishment of borrowings treated as capital
     transaction (note 6)                                                         —     51,693
  End of year (note 5)                                             $     1,753,829    1,220,643


See accompanying notes to financial statements.




                                                    7
                                        FEDERAL FINANCING BANK
                                             Statements of Cash Flows
                                    Years ended September 30, 2006 and 2005
                                                (Dollars in thousands)


                                                                                2006          2005
Cash flows from operations:
  Net income                                                             $      533,186       555,964
  Adjustments to reconcile net income to net cash provided
     by operations:
        Amortization of premium on loans                                        (68,938)      (32,973)
        Capitalization of interest receivable                                      (527)           —
        Capitalization of interest payable                                       88,628            —
        (Increase) decrease in accrued interest receivable                     (262,727)       66,337
        Increase in accrued interest payable                                    125,294       108,316
        Increase in advances to others                                             (131)         (120)
        Increase (decrease) in other liabilities                                    129            (4)
              Net cash provided by operations                                   414,914       697,520
Cash flows from investing activities:
  Loan disbursements                                                          (5,729,852)   (4,373,603)
  Loan collections                                                             1,661,150     5,925,163
  Note receivable collection                                                          —        246,221
              Net cash (used in) provided by investing activities             (4,068,702)   1,797,781
Cash flows from financing activities:
  Borrowings                                                                   5,730,270     4,373,603
  Repayments of borrowings                                                    (1,536,471)   (6,957,306)
              Net cash provided by (used in) financing activities             4,193,799     (2,583,703)
              Net increase (decrease) in cash                                   540,011       (88,402)
Funds with U.S. Treasury – beginning of the period                              361,469       449,871
Funds with U.S. Treasury – end of the period                             $      901,480       361,469
Supplemental disclosures of cash flow information:
  Interest paid (net of amount capitalized)                              $    1,031,821     1,066,269
Supplemental schedule of noncash investing and financing activities:
  Decrease in loans for capitalized interest receivable                  $             —       10,837
  Increase in borrowings for capitalized interest payable                $             —         4,303
  Gain on early extinguishment of borrowings
    treated as capital transactions. (note 6)                            $             —       51,693
  The Bank issued borrowings of $14,246,221 and a related premium
    of $507,613 in exchange for an investment and related interest
    receivable totaling $14,753,834. (note 6)
  The Bank extinguished borrowings of $14,447,217 using an
    investment and related interest receivable totaling
    $14,753,834. In addition, the Bank received a note receivable
    for $246,221 that was due on December 31, 2004. (note 6)


See accompanying notes to financial statements.
                                                          8
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2006 and 2005
                                             (Dollars in thousands)



(1)   Summary of Significant Accounting Policies
      The Federal Financing Bank (the Bank) was created by the Federal Financing Bank Act of 1973
      (12 USC 2281, the Act) as an instrumentality of the U.S. Government and a body corporate under the
      general supervision of the Secretary of the Treasury (the Secretary). The budget and audit provisions of the
      Government Corporation Control Act are applicable to the Bank in the same manner as they are applied to
      other wholly owned government corporations.

      The Bank was established by Congress at the request of the U.S. Department of the Treasury (Treasury), in
      order “to assure coordination of federal and federally assisted borrowing programs with the overall
      economic and fiscal policies of the U.S. Government, to reduce the cost of federal and federally assisted
      borrowing from the public, and to assure that such borrowings are financed in a manner least disruptive of
      private financial markets and institutions.” The Bank was given broad statutory authority to finance
      obligations issued, sold, or guaranteed by federal agencies so that the Bank could meet these debt
      management objectives.

      The Bank is authorized, with the approval of the Secretary, to issue obligations to the public in amounts
      not to exceed $15,000,000. Additionally, the Bank is authorized to issue obligations in unlimited amounts
      to the Secretary and, at the discretion of the Secretary, may agree to purchase any such obligations.

      (a)   Basis of Presentation
            The Bank has historically prepared its financial statements in accordance with accounting principles
            generally accepted in the United States of America (GAAP), based on standards issued by the
            Financial Accounting Standards Board (FASB), the private-sector standards-setting body. In
            October 1999, the American Institute of Certified Public Accountants (AICPA) designated the
            Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for the
            financial statements of federal government entities, with respect to the establishment of accounting
            principles generally accepted in the United States of America. The FASAB has indicated that
            financial statements prepared based upon standards promulgated by the FASB may also be regarded
            as in accordance with GAAP for those federal entities, such as the Bank, that have issued financial
            statements based upon FASB standards in the past. Accordingly, consistent with historical reporting,
            the Bank’s financial statements are presented in accordance with accounting and financial reporting
            standards promulgated by the FASB.

      (b)   Basis of Accounting
            The financial statements are presented on the accrual basis of accounting. The Bank recognizes loans
            when they are issued and related repayments when they are received. The Bank recognizes
            borrowings when they are received and repayments when they are made. In addition, the Bank
            recognizes interest on loans and revenue from servicing loans when they are earned and recognizes
            interest on borrowings and expenses when they are incurred.




                                                       9
                                 FEDERAL FINANCING BANK
                                   Notes to Financial Statements
                                   September 30, 2006 and 2005
                                       (Dollars in thousands)



(c)   Funds with U.S. Treasury
      As a government corporation, the Bank maintains a Fund Balance with Treasury (fund
      account 20X4521) and does not hold cash. For the purposes of the statement of cash flows, the funds
      with Treasury are considered cash.

(d)   Loans Receivable
      The Bank issues loans to federal agencies for their own use or to issue loans to private sector
      borrowers, whose loans are guaranteed by the federal agencies. When a federal agency has to honor
      its guarantee because a private sector borrower defaults, the federal agency must obtain an
      appropriation or use other resources to pay the Bank. Loan principal and interest are backed by the
      full faith and credit of the U.S. Government, except for loans to the U.S. Postal Service. The Bank
      has not incurred and does not expect to incur any credit-related losses on its loans.

(e)   Interest on Loans
      The Bank’s general policy is to capture the liquidity premium between Treasury securities and the
      private sector lending rates, and to charge a rate that reflects the risk inherent in a borrower or
      transaction, when such a rate will accomplish a broader goal. Under the 1997 amendments to the
      Federal Credit Reform Act while the Bank continues to be permitted to charge a spread on new
      lending arrangements with government-guaranteed borrowers, the margin may no longer be retained
      by the Bank, but rather is credited to and retained by the loan guarantor. Since the Bank is not
      collecting income from the interest spread, there is a possibility that the Bank may not be able to
      fund its administrative expenses related to these loans. The 1997 amendments to the Federal Credit
      Reform Act allow the Bank to require reimbursements to cover the administrative expenses related
      to these loans from loan guarantors who have retained the margin.

(f)   Capitalized Interest
      In accordance with loan agreements with the Bank, the General Services Administration (GSA),
      Historically Black Colleges and Universities (HBCU), and Veteran Administration Transitional
      Housing (VATH) program have the option of deferring payments of interest on their loans until
      future periods. When GSA, HBCU, or VATH elect, in advance, to defer interest payments, the
      accrued interest is recorded as capitalized interest receivable and added to the respective loan
      balance by the Bank. The Bank correspondingly capitalizes the interest payable on its related
      borrowings.

(g)   Premium on Borrowings
      The Bank amortizes the premium on borrowings using the effective interest method. The
      amortization is recorded as part of interest on borrowings on the statement of operations and changes
      in net position.

(h)   Revenue from Servicing Loans
      The Bank charges certain Rural Utilities Services (RUS) borrowers a loan service fee that is reported
      as revenue from servicing loans on the statements of operations and changes in net position. The

                                                10
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2006 and 2005
                                       (Dollars in thousands)



      Bank’s loan servicing fee is equal to one-eighth of one percent more than the contractual interest rate
      with Treasury.

(i)   Legislatively-mandated Expense
      In prior years, the Bank purchased certificates of beneficial ownership (i.e., loans reported as loans
      receivable on the statement of financial position) from RUS, a component of the U.S. Department of
      Agriculture. RUS used the funds received from the Bank to issue loans to non-federal entities,
      specifically private utility companies. In 1987, Congress passed legislation (i.e., 7 USC Sec. 940c –
      Cushion of Credit Payments Program) that required RUS to develop and promote a program to
      encourage private utility companies to voluntarily make deposits into cushion of credit accounts
      established within RUS. The legislation also indicated that a private utility company may reduce the
      balance of its cushion of credit account only if the reduction is used to make scheduled payments on
      loans received from RUS. In accordance with the legislation, the private utility companies earn
      interest at the higher of 5% or the weighted average rate of the certificates of beneficial ownership
      on cash deposited into the cushion of credit accounts with RUS. The legislation also indicated that
      RUS shall receive an interest credit from the Bank equal to the amount of interest RUS pays to the
      private utility companies. The Bank records the interest credit in the period the cost is incurred as a
      legislatively-mandated expense in the statement of operations and changes in net position.

(j)   Administrative Expenses
      The Bank is subject to the general supervision and direction of the Secretary. As provided by law,
      the Secretary acts as Chairman of the board of directors. Employees of Treasury’s Departmental
      Offices perform the Bank’s management and accounting functions; its legal counsel is the General
      Counsel of the Treasury. The Bank reimburses Treasury for the facilities and services it provides.
      The amount of such reimbursements for the years ended September 30, 2006 and 2005, was $3,991
      and $2,945, respectively, and is included as administrative expenses in the statement of operations
      and changes in net position.

(k)   Net Position
      The Bank can borrow from Treasury to meet its immediate cash needs and can also seek
      appropriations from Congress to make up for accumulated losses that will not be met by income.

(l)   Management’s Use of Estimates
      The preparation of financial statements in conformity with GAAP requires management to make
      estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
      contingent assets and liabilities at the date of the financial statements and the reported amounts of
      income and expenses during the reporting period. Actual results could differ from those estimates.

(m)   Tax-Exempt Status
      The Bank is exempt from tax in accordance with Section 11(a) of the Federal Financing Bank Act of
      1973 (12 USC 2281).


                                                 11
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2006 and 2005
                                              (Dollars in thousands)



      (n)   Related Parties
            The Bank conducts most of its financial transactions with other federal entities and therefore the
            financial statement balances that represent transactions with other federal entities include all assets,
            liabilities except borrowings from the public of $10 as of September 30, 2006 and 2005, revenues,
            and expenses.

      (o)   Future Accounting Standards
            In March 2006, the FASB issued SFAS No. 156, Accounting for Servicing of Financial Assets – an
            Amendment of FASB Statement No. 140 (SFAS No. 156). SFAS No. 156 requires entities to
            recognize a servicing asset or liability each time it undertakes an obligation to service a financial
            asset by entering into a servicing contract in certain situations. This statement also requires all
            separately recognized servicing assets and servicing liabilities to be initially measured at fair value
            and permits a choice of either the amortization or fair value measurement method for subsequent
            measurement. SFAS No. 156 is effective for all financial instruments acquired or issued after the
            beginning of an entity’s first fiscal year that begins after September 15, 2006. The Bank has not
            completed the process of evaluating the impact that will result from adopting SFAS No. 156.

            In September 2006, the FASB issued SFAS No. 157, Fair Value Measurements (SFAS No. 157).
            SFAS No. 157 defines fair value, establishes a framework for measuring fair value in generally
            accepted accounting principles (GAAP), and expands disclosures about fair value measurements.
            SFAS No. 157 is effective for financial statements issued for fiscal years beginning after November
            15, 2007. The Bank has not completed the process of evaluating the impact that will result from
            adopting SFAS No. 157.

(2)   Loans Receivable
      Loans receivable represent the outstanding balances for loans to agencies. The Bank has the ability and
      intends to hold loans receivable until maturity or payoff. At September 30, 2006, the Bank had outstanding
      loans receivable of $31,843,573 with interest rates ranging from 2.037% to 16.183%, and maturity dates
      from October 1, 2006 to July 17, 2045. At September 30, 2005, the Bank had loans receivable of
      $27,774,344 with interest rates ranging from 1.617% to 16.183%, and maturing dates ranging from
      October 1, 2005 to January 3, 2040.




                                                       12
                                      FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2006 and 2005
                                             (Dollars in thousands)



      Loans receivable at September 30, 2006 and 2005, consist of the following:
                                  Agency                                        2006                2005
      Rural Utilities Service, Department of Agriculture                 $   21,366,837          18,535,948
      Rural Utilities Service, Department of Agriculture (CBO)
        certificates of beneficial ownership                                  3,916,573           4,270,207
      General Services Administration                                         2,191,603           2,201,455
      U.S. Postal Service                                                     2,100,000                  —
      Foreign Military Sales, Department of Defense                           1,023,946           1,244,459
      Low Rent Public Housing, Department of
        Housing and Urban Development                                              883,966          971,927
      Veteran Administration Transitional Housing Program                            2,478               —
      Ship Leasing, Department of Defense, Navy                                    170,586          375,712
      Historically Black Colleges and Universities, Department
        of Education                                                               155,347          126,500
      Small Business Administration                                                 26,510           39,705
      Virgin Islands, Department of the Interior                                     3,239            5,523
      Federal Railroad Administration, Department of
        Transportation                                                               2,488             2,694
      Community Development Block Grants, Department of
        Housing and Urban Development                                                  —                 214
                    Total loans receivable                               $   31,843,573          27,774,344


      The loans receivable due within one year is $4,892,767 and $1,061,045 as of September 30, 2006 and
      2005, respectively.

(3)   Borrowings
      Under the FFB Act, the Bank may, with the approval of the Secretary of the Treasury, borrow without limit
      from the Treasury. Repayments on Treasury borrowings match the terms and conditions of corresponding
      loans made by the Bank and bear interest at the respective rate as determined by the Secretary of the
      Treasury. The Bank’s borrowings are repayable on demand. At September 30, 2006, the Bank had
      Treasury borrowings of $16,709,035 with interest rates ranging from 1.502% to 16.050%, and maturity
      dates from October 1, 2006 to July 17, 2045. At September 30, 2005, the Bank had Treasury borrowings of
      $12,426,608, with interest rates ranging from 1.448% to 16.050%, and maturity dates from October 1,
      2005 to January 3, 2040.

      Additionally, at September 30, 2006 and 2005 the Bank had borrowings of $14.0 billion and an associated
      unamortized premium of $405,702 and $474,640 at September 30, 2006 and 2005, respectively (also see
      note 6 for details of transaction) from the Civil Service Retirement and Disability Fund (CSR&DF), which
      is administered by the Office of Personnel Management (OPM). These borrowings are at stated interest
      rates ranging from 4.625% to 5.625%, effective interest rate of 4.125%, and with maturity dates ranging
      from June 30, 2009 to June 30, 2019. The principal amounts, maturity dates, and interest rates on the debt


                                                      13
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2006 and 2005
                                             (Dollars in thousands)



      to OPM are the same as the obligations previously issued by Treasury’s Bureau of the Public Debt to OPM
      as investments.

      Borrowings from the public amounted to $10 at September 30, 2006 and 2005.

      The scheduled principal repayments below reflect maturities of the Bank’s borrowings and do not
      necessarily match the maturities of assets in the Bank’s loan portfolio. Scheduled principal repayments of
      borrowings as of September 30, 2006, are as follows:

                          Fiscal Year
                          2007                                           $       4,758,894
                          2008                                                   1,801,954
                          2009                                                   2,530,058
                          2010                                                   1,966,083
                          2011                                                   2,745,151
                          2012 and thereafter                                   16,906,905
                                        Total principal payments                30,709,045
                                        Plus unamortized premium                   405,702
                                        Total borrowings                 $      31,114,747


(4)   Fair Value of Financial Instruments
      (a)   Funds with U.S. Treasury
            The carrying amount approximates fair value because of the liquid nature of the funds with Treasury.

      (b)   Loans Receivable and Borrowings
            The fair value of loans receivable and borrowings is calculated using discounted cash flow analyses
            based on contractual repayment terms. The discount rates used in the loans receivable analysis are
            based on interest rates currently being offered by the Bank on loans of similar maturity and other
            characteristics. The discount rates used in the borrowings analysis are based on interest rates of
            current borrowings from Treasury using similar maturity and other characteristics. The fair value of
            loans receivable at September 30, 2006 and 2005, was $34,957,860 and $31,759,870, respectively.
            The fair value of borrowings at September 30, 2006 and 2005, was $31,028,820 and $27,195,570,
            respectively.

      (c)   Advances to Others, Accrued Interest Receivable, Accrued Interest Payable, and Other Liabilities
            The carrying amount of advances to others, accrued interest receivable, accrued interest payable, and
            other liabilities approximate fair value as they represent the amounts expected to be realized or paid
            and are current assets and liabilities.




                                                       14
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2006 and 2005
                                             (Dollars in thousands)



(5)   Net Position
      At September 30, 2006 and 2005, the net position includes the following:
                                                                                  2006               2005
      Transfers to Treasury                                              $     (1,682,847)         (1,682,847)
      Cumulative results of operations and gains/losses on
        extinguishment of borrowings treated as capital
        transactions                                                             3,436,676          2,903,490
                     Net position                                        $       1,753,829          1,220,643


      Included in the net position activity is income the Bank earned prior to fiscal year 2000 that the Bank
      transferred to Treasury.

(6)   Capital Transactions
      On November 15, 2004 the Bank issued debt obligations of $14,000,000 with interest rates ranging from
      4.625% to 5.625% and maturity dates ranging from June 30, 2009 to June 30, 2019, a related premium of
      $507,613 and a debt obligation of $246,221 with a maturity date of December 31, 2004, to CSR&DF and
      received in exchange $14,000,000 of investments at par value “Specified Treasury Specials,” issued by
      Treasury with interest rates ranging from 4.625% to 5.625%, and maturity dates ranging from June 30,
      2009 to June 30, 2019, related purchased accrued interest receivable of $246,221, and related purchased
      premium of $507,613.

      On November 15, 2004, the Bank used the “Specified Treasury Specials” received from the CSR&DF of
      $14,000,000; related premium of $507,613; and related interest receivable of $246,221 to extinguish
      $14,447,217 of borrowings from the Treasury, related capitalized interest of $15,064; and related interest
      payable of $82,473. In addition, the Bank received a note receivable from the Treasury of approximately
      $246,221 that was due on December 31, 2004.

      These transactions resulted in the Bank owing debt to the CSR&DF instead of owing debt to the Treasury
      and resulted in a gain of $37,141, which represents a capital transaction with Treasury.

      In June and September 2005, the Bank made early repayments to the Treasury totaling $969,240 resulting
      in a net gain of $14,552, which represents a capital transaction with Treasury.

(7)   Capitalized Interest
      Capitalized interest receivable was approximately $45,155 and $58,687, and the related capitalized interest
      payable was $90,255 and $13,860 as of September 30, 2006 and 2005, respectively. Capitalized interest
      receivable and payable are reported as part of the loans receivable and borrowing balances, respectively, on
      the statement of financial position.




                                                       15
                                        FEDERAL FINANCING BANK
                                 Other Supplementary Information – Schedule 1
                         Unaudited – See Accompanying Independent Auditors’ Report
                                            September 30, 2006 and 2005
                                               (Dollars in thousands)



In prior years, the Federal Financing Bank (Bank) purchased certificates of beneficial ownership (i.e., loans
reported as loans receivable on the statement of financial position) from the Rural Utilities Service (RUS), a
component of the U.S. Department of Agriculture. RUS used the funds received from the Bank to issue loans to
non-federal entities, specifically private utility companies. In 1987, Congress passed legislation (i.e., 7 USC Sec.
940c – Cushion of Credit Payments Program) that required RUS to develop and promote a program to encourage
private utility companies to voluntarily make deposits into cushion of credit accounts established within RUS.
The legislation also specified that private utility companies may reduce the balance of its cushion of credit
account only if the reduction is used to make scheduled payments on loans from RUS. In accordance with the
legislation, the private utility companies accrue interest at a rate of 5% per annum on cash deposited into the
cushion of credit accounts with RUS. The legislation also specified that RUS shall receive an interest credit from
the Bank equal to the amount of interest RUS pays to the private utility companies. The Bank records the interest
credit in the period the cost is incurred as a legislatively mandated expense. As of September 30, 2006, the
outstanding principal balance of the 17 RUS loans totaled $3,916,573, with interest rates ranging from 7.755% to
15.325%, and maturity dates ranging from 2008 to 2021. In October 1998, the Bank received an appropriation
that off-set the RUS-CBO interest credits by $917,699.

The interest credits that the Bank has provided RUS-CBO through September 30, 2006 are as follows:
                                                                                   Interest
                                                                                    credit
                              Fiscal Year                                      Interest Credit
                              1988–2002                                    $        1,220,516
                              2003                                                     71,810
                              2004                                                    150,134
                              2005                                                    244,420
                              2006                                                    234,266
                                          Total interest credits                   1,921,146
                              Less appropriation                                    (917,699)
                                          Total                            $       1,003,447




                                                        16
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                   Independent Auditors’ Report on
                               Internal Control over Financial Reporting


Inspector General, U.S. Department of the Treasury, and the
Fiscal Assistant Secretary of the U.S. Department of the Treasury:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2006 and 2005, and the related statements of operations and changes in net position and
cash flows for the years then ended, and have issued our report thereon dated November 10, 2006. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 06-03, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
06-03 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

The management of the Bank is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2006 audit, we considered the Bank’s internal control over
financial reporting by obtaining an understanding of the Bank’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in Government Auditing Standards and OMB Bulletin No. 06-03. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit was not to provide an opinion on the Bank’s internal control over
financial reporting. Consequently, we do not provide an opinion thereon.

Our consideration of the internal control over financial reporting would not necessarily disclose all matters
in the internal control over financial reporting that might be material weaknesses under standards issued by
the American Institute of Certified Public Accountants. Material weaknesses are reportable conditions in
which the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud in amounts that would be material
in relation to the financial statements being audited may occur and not be detected within a timely period
by employees in the normal course of performing their assigned functions. Because of inherent limitations
in internal control, misstatements due to error or fraud may nevertheless occur and not be detected.
However, we noted no matters involving the internal control and its operation that we considered to be
material weaknesses as defined above.

We noted certain matters that we reported to the management of the Bank in a separate letter dated
November 10, 2006.



                                                                    17
                                   KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                   a member of KPMG International, a Swiss cooperative.
This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, the OMB, the U.S. Government Accountability Office, and
the U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 10, 2006




                                                  18
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury, and the
Fiscal Assistant Secretary of the U.S. Department of the Treasury:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2006 and 2005, and the related statements of operations and changes in net position and
cash flows for the years then ended, and have issued our report thereon dated November 10, 2006. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements. Those standards
and OMB Bulletin No. 06-03 require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement.

The management of the Bank is responsible for complying with laws, regulations, and contracts applicable
to the Bank. As part of obtaining reasonable assurance about whether the Bank’s financial statements are
free of material misstatement, we performed tests of the Bank’s compliance with certain provisions of
laws, regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 06-03. Our audit procedures were not designed to test the requirements of
OMB Bulletin No. 06-03 relating to the Federal Financial Management Improvement Act (FFMIA) of
1996, which are not considered applicable at the Bank level. FFMIA requirements will be reviewed and
reported on as part of the financial statement audit of the U.S. Department of the Treasury. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws, regulations, and contracts applicable to the Bank. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not express
such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 06-03.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, the OMB, the U.S. Government Accountability Office, and
the U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 10, 2006

                                                                       19
                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
